Cl

cm

(Q)

F-->

H

UJ V

No.

FILED
OCT 2 9 2020
sypREEMEFco,URT;LMlQK

IN THE
SUPREME COURT OF THE UNITED STATES

(\le,Y h\!
(Your Na

/Y^1 A' € Y^Urxkcr

<3 CJM A/UN tJ +

a
,

tBL*.
VS.

— PETITIONER

yg

fhornw QemvsiraJ

&klA't4<mk

W tiW cUsy- RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

0 KtMY/){Y)A Oon ri /ft Oe.

Irrl //•)

<*.1 Aft/w&ls

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR Cflsl)
PETITION FOR WRIT OF CERTIORARI

Ai&x K ^1 er

(Your Name)
\

ckllo hi !f\ ClY'rru fSil- tAirut ^Vfs- ^7/)
(Address)

if

1^-lLcHet,
.
rikiA /ianLll
)
(City, State, Zip Code)

(Phone Number)

RECEIVED
JAN 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTIONS PRESENTED

1. Whether an appellate court must apply the standard laid out in this Court’s
decision in Jackson v. Virginia to determine whether the State has disproved
self-defense beyond a reasonable doubt.
Cf

2. Whether a defendant may be held criminally liable for injuries sustained by
state official during the execution of an illegally obtained search warrant for a
crime alleged to be committed outside the state court jurisdiction.

3. Whether, under the Court’s decision in Blockburger and its progeny.
Petitioner’s convictions for assault and battery with a deadly weapon and
maiming violate Double Jeopardy.

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

United States Constitution, Article VI § 2
Treaty with Choctaws and Chickasaws, 14 Stat. 769 (1866)
Treaty with Choctaws, 11 Stat. 611 (1855)
21 O.S. 2011, §652
21 O.S. 2011, § 751
25 U.S.C. § 1304

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

f

For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:______ ___
, and a copy of the
order denying rehearing appears at Appendix
[ 1 An extension of tune to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The. jurisdiction of this Court is invoked under 28 U. S. C. ,§ 1254(1).

^ For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision, appears at Appendix A
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. §

STATEMENT OF THE CASE

Petitioner Alex Warren Klingler was tried by a jury in the District Court of
Grady County, CF-2017-284, and convicted of three counts of Assault and Battery
with Deadly Weapon, in violation of 21 O.S. 2001, § 652(C), six counts of
Shooting with Intent to Kill, in violation of 21 O.S. 2001, § 652(A), and one count
of Maiming, in violation of 21 O.S. 2001, § 751.
Petitioner appealed to the Oklahoma Court of Criminal Appeals claiming that
the State filed to introduce sufficient evidence to overcome his affirmative defense
of self-defense and that his convictions for both Assault and Battery and Maiming
run afoul of Double Jeopardy. The Oklahoma Court of Criminal Appeals affirmed
and this Petition for Writ of Certiorari ensued.

/

REASONS FOR GRANTING THE WRIT

The interplay between tribal and state criminal jurisdiction when crimes occur
within the boundaries of an Indian reservation and that Indian reservation is within
the territorial limits of a state is a very new concept to Oklahoma authorities and
courts. Since this Court’s ruling in McGirt v. Oklahoma, state actors have yet to
fully appreciate or apply this Court’s precedents with respect to treaties, Indian
status and jurisdiction.
The presenting case, where Petitioner and his longtime intimate partner got into
a physical altercation over narcotics that resulted in injuries to the intimate partner,
proved an excellent opportunity for this Court to provide jurisdictional guidance
when a non-Indian is accused of a crime within an Indian reservation where he also
resides.
Apparently, despite decades of this Court’s rulings on the jurisdiction of
authorities when issuing search warrants, arrest warrants, prosecutions and
sentencing with respect to non-Indians in Indian country, Oklahoma is
determinatively unaware and in violation.
Additionally, Oklahoma courts will struggle with when a criminal episode
constitutes a single act or two or more separate, distinct acts.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

IQM
Date:

) — /h ~ 3.0 3./

